BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-843
NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., ET AL.,

Petitioners,
V.

KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
ACTING SUPERINTENDENT OF NEW YORK STATE
POLICE, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Amicus Curiae Everytown for
Gun Safety in Support of Respondents contains 7,991
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on September 21, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public

J

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Comm:ssron Expires
rebniary 14, 2023

